July 10, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Cannon, et al. v. Savory, 19-1360
Dear Mr. Harris:
We represent the respondent with respect to the above-referenced petition for
certiorari. A response is currently due on July 13, 2020. Respondent respectfully
requests that the time to file a response be extended by 28 days, to and including
Monday, August 10, 2020. The extension is warranted because undersigned counsel,
Steve Art, has been occupied with time-sensitive briefing in other appeals, including
Vargas v. City of Los Angeles, et al., No. 19-55967 (CA9) (opening brief due July 27,
2020); (b) Kuri v. City of Chicago, et al., No. 19-2967 (7th Cir.) (opening brief due
July 29 29, 2020); and (c) Palmer v. Illinois, No. 125621 (Illinois Supreme Court)
(opening brief due July 6, 2020). In addition, the ongoing COVID-19 pandemic and
related closures have caused additional burdens on counsel’s time unrelated to his
legal practice. An extension of 28 days will allow Mr. Art to prepare a
comprehensive response that fully addresses the issues raised by Petitioners and
will aid the Court’s efficient resolution of this matter.
Respectfully submitted,
/s/ Steve Art

Counsel of Record for Respondent
cc: James G. Sotos, Sara J. Schroeder, & Samantha J. Pallini, The Sotos Law Firm

